                  UNCLASSIFIED

     United States Department of State
  and the Broadcasting Board of Governors
         Office of Inspector General




          Memorandum Report



 Improved Approach Needed
   to Achieve Government
  Paperwork Elimination Act
         Objectives


Report Number IT-A-03-01, December 2002




 This report has been reviewed under the Freedom of
 Information Act (5 USC 552) for public release.

                    IMPORTANT NOTICE




                  UNCLASSIFIED
                                           UNCLASSIFIED




                                   INTRODUCTION

Rapid advances in information technology (IT) and the World Wide Web are
transforming the way in which government and industry organizations share infor-
mation and conduct business. The federal government seeks to leverage these
advances in Internet technology to improve services at lower costs to meet an
increasing public demand for government services. Electronic government (e-
government) is the reliance on automated means to exchange information within
agencies or with other governments, agencies, businesses, or citizens. It is one of
five key elements in the President’s Management Agenda, FY 2002.

    Congress passed the Government Paperwork Elimination Act (GPEA)1 to help
agencies meet the e-government goals. The Office of Management and Budget
(OMB) provides central direction and oversight of department and agency plans for
achieving federal e-government objectives. Agencies must provide the option of
electronic exchange of information as a substitute for paper by October 21, 2003.

    To help the Department ensure efficiency in its IT management and operations,
the Office of Inspector General (OIG) conducted a review of agency-wide efforts
to implement GPEA. OIG’s review objectives were: (1) to determine how effec-
tively the Department is implementing its plan to meet specific requirements of the
GPEA legislation; and (2) to assess the Department’s supporting project manage-
ment structure for developing the plan. OIG also sought to identify any manage-
ment challenges that exist to effective GPEA implementation. The purpose, scope,
and methodology for our review are discussed in Appendix A.




1   Pub. L. No. 105-277, Div C., Title XVII, 112 Stat. 2681-749 (1998).




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   1 .


                                           UNCLASSIFIED
                                                 UNCLASSIFIED




2 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                 UNCLASSIFIED
                                           UNCLASSIFIED




                              RESULTS IN BRIEF

The Department submitted its initial e-government plan and subsequent updates in
a timely manner to meet OMB’s annual GPEA reporting requirements. However,
these submissions have not adequately fulfilled OMB guidelines or met the
administration’s e-government objectives. Specifically, although the Department’s
initial plan in 2000 met the basic GPEA requirement to provide an inventory of
information collection activities to be made electronic by the law’s 2003 deadline,
the plan lacked an overarching GPEA vision and strategy. Subsequent 2001
updates to the plan better articulated the Department’s GPEA strategy, but fell
short in a number of areas, including the failure to link the strategy with key
planning processes and an enterprise architecture.2

     The Department’s ineffectiveness in meeting the reporting requirements can be
attributed to the lack of a centralized program management organization, respon-
sible for coordinating and overseeing e-government initiatives and fulfilling GPEA
objectives on an enterprise-wide basis. Other federal agencies and comparable
projects within the Department have demonstrated the merits of instituting pro-
gram management offices to accomplish shared objectives across organizational
units.

    Establishing a full-time, e-government program management office would
ensure the focus, accountability, and day-to-day coordination needed to help the
Department meet the administration’s objectives and GPEA requirements. Such an
office would also help the Department meet the challenges of coordinating its
GPEA/e-government approach with sound strategies for ensuring security in
electronic transactions and the increased use of web-based technologies as it works
to modernize its IT infrastructure.




2 An enterprise architecture is an integrated framework for evolving or maintaining existing IT and acquir-
ing new technologies to achieve the agency’s strategic goals and information resources management ob-
jectives.




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   3 .


                                           UNCLASSIFIED
                                                 UNCLASSIFIED




4 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                 UNCLASSIFIED
                                           UNCLASSIFIED




                                     BACKGROUND

The President’s Management Agenda focuses on improving the management and
performance of federal government operations through 14 strategic initiatives.
One initiative, expanded electronic government, champions a citizen-centered
government by empowering citizens, through the use of technology, with access to
information when it is needed. GPEA is an important tool in fulfilling the
administration’s vision for improved customer service and government efficiency.
The act requires that federal agencies provide for (1) the option of electronic
maintenance, submission, or disclosure of information, when practicable as a
substitute for paper; and (2) the use and acceptance of electronic signatures, when
practicable, by October 21, 2003. Several examples of e-government transactions
include on-line tax-filing, changes to postal addresses, and applications for financial
aid or social security benefits.

     OMB has published a series of instructional memoranda to assist agencies in
meeting GPEA requirements. The guidance specifically required each agency to
submit to OMB, by October 2000, its plan for implementing GPEA and to coordi-
nate the plan with strategic IT planning activities that support program responsibili-
ties consistent with the budget process. Agencies were to provide annual updates
of their plans in October of each subsequent year until the 2003 deadline. As
required by GPEA and other legislation, 3 OMB requested that agencies include in
their plans information on the use of electronic signatures to authenticate and
ensure the security of automated transactions.




3Including Electronic Signatures (E-Sign) in Global and National Commerce Act: Pub. L. No. 106-229,
114 Stat. 464 (2000).




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   5 .


                                           UNCLASSIFIED
                                                 UNCLASSIFIED




6 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                 UNCLASSIFIED
                                           UNCLASSIFIED




                               REVIEW FINDINGS

DEPARTMENT’S ANNUAL PLAN AND UPDATES HAVE NOT
FULFILLED GPEA AND OTHER FEDERAL E-GOVERNMENT
OBJECTIVES
The Department’s 2000 GPEA plan and 2001 updates were submitted on time to
meet annual reporting requirements. However, these submissions have not fulfilled
OMB guidelines and the administration’s e-government objectives. Specifically,
although the Department’s initial plan in 2000 met the basic GPEA requirement to
provide an inventory of the information collection activities to be made electronic
by the October 2003 deadline, the plan lacked an overarching GPEA vision and
strategy. The 2001 plan update and additional follow-up information better articu-
lated the Department’s GPEA strategy, but still did not document a comprehen-
sive, concerted effort to implement e-government initiatives and fulfill GPEA
objectives. OIG believes the Department would benefit from examining and
applying the effective GPEA implementation practices of other federal agencies or
prior internal project management activities to help ensure that future GPEA plan
updates are better linked to enterprise-wide plans and architectures and are driven
by related management policies and practices.

Department’s 2000 Plan

The Department met the requirements OMB set for reporting on GPEA efforts by
October 2000. Initial OMB guidance issued in April 20004 provided background
information on GPEA, discussed how agencies could improve service delivery
through electronic transactions and signatures, and gave basic policies and proce-
dures for complying with the legislation. In July 2000, OMB issued supplemental
guidance that provided a structured, standardized format for first-year agency
reporting on GPEA implementation plans. 5 The additional guidance focused on the
types of data that OMB expected each department or agency to include in its
October 2000 plans.

4 OMB Procedures and Guidance on Implementing the Government Paperwork Elimination Act, Memo-
randum M-00-10 (Apr. 25, 2000).
5 Memorandum for Chief Information Officers (July 25, 2000), from John T. Spotila, Executive Office of
the President, Achieving Electronic Government: Instruction for Plans to Implement the Government
Paperwork Elimination Act.
OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   7 .


                                           UNCLASSIFIED
                                                 UNCLASSIFIED



                   OMB feedback on the Department’s 2000 GPEA plan in the budget passback
               in July 2001 stated that the plan was a good start toward meeting the statutory
               GPEA deadline in a timely manner. However, OMB’s foremost criticism was that
               the Department’s plan did not clearly articulate an overarching GPEA strategy and
               vision. For future plan updates, OMB directed the Department to examine its e-
               government strategy on a broader level by developing a vision of how to use
               technology to implement projects with the highest net benefit to the public and the
               agency. OMB recommended that the Department’s vision be integrated into its
               capital planning and enterprise architecture processes and strategic, performance,
               and budget plans to prioritize e-government initiatives by the costs, risks, and
               benefits of making transactions electronic.

               Department’s 2001 Plan Update

               The Department did not fulfill all of OMB’s requirements for the 2001 GPEA plan
               update, earning it an overall score of red on the executive branch scorecard for
               measuring agency progress in implementing e-government.6 In its guidance to
               departments and agencies on updating their GPEA plans that second year, OMB
               broadened the scope of the submissions to require more details and agency-wide
               strategies for achieving e-government objectives. The new requirements were in
               line with improvements that OMB had recommended in its response to the
               Department’s GPEA submission the previous year. The new requirements also
               reflected the evolving federal vision for e-government based on the President’s
               Management Agenda.

                   Specifically, as in the previous year, OMB directed each department or agency
               to revise its GPEA plan by October 2001, to update its overall strategy for achiev-
               ing e-government objectives, and to comply with GPEA by the deadline. That
               second year, however, the update was to address how the agency’s GPEA and e-
               government strategy:

                    •    Integrated plans for transforming agency operations to achieve five specific
                         types of e-government transactions; that is, within the agency, and with
                         other federal agencies, governments, businesses, and citizens;

               6 OMB’s Executive Branch Management Scorecard measures an agency’s performance in each of the five
               government-wide initiatives described in the President’s Management Agenda. The scorecard uses three
               colors to score and evaluate the current status of an initiative and the plans to implement the President’s
               Management Agenda. Green is used to indicate that implementation is proceeding according to plans
               agreed upon by the agencies. Yellow indicates slippage in implementation schedule, quality of
               deliverables, or other issues requiring adjustment by the agency in order to achieve initiative goals. Red
               indicates the initiative is in serious jeopardy and unlikely to realize the objectives absent significant man-
               agement intervention.

8 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                 UNCLASSIFIED
                                           UNCLASSIFIED



     •    Related to work to develop and maintain an enterprise architecture;

     •    Addressed the use of IT and on-line processes to unify and simplify transac-
          tions; and

     •    Were coordinated with IT capital planning processes for ensuring that the
          most beneficial projects were prioritized for implementation.

    In 2001, the Department provided its GPEA plan update in the time frame that
OMB required. The updated plan recapped the Department’s GPEA strategy,
providing improved linkages to the Department’s Strategic Plan and summarizing
progress in modernizing the IT infrastructure to provide a framework for e-govern-
ment. The update included a table of the Department’s strategies for the five
specific types of e-government transactions, cross-referencing these strategies to
the Department’s International Affairs Strategic Plan, IT Strategic Plan, and the
current Performance Plan. The update also set forth several essential supporting
capabilities the Department needed to implement the five e-government strategies,
including implementation of its OpenNet Plus program to provide employees with
Internet access at the desktop and modernization of secret-level networks overseas
through the Classified Connectivity Program.

Deficiencies in the 2001 Plan Update

Even though the Department’s 2001 GPEA update and the supplemental data
provided in response to OMB follow-up requests later in the fiscal year fulfilled the
requirements in some of the areas discussed above, the submissions fell short in a
number of ways. The Department generally did not take a strategic approach to
implementing GPEA to meet evolving federal e-government objectives. OIG
found this reflected in a lack of GPEA/e-government linkages to key department-
wide planning processes. In the absence of a more comprehensive strategy, the
Department used an ad hoc approach to compile its annual GPEA update—an
approach that lacked an effective means for identifying high-priority e-government
initiatives. The Department also did not link its submission to an enterprise archi-
tecture. Many of these deficiencies were not limited to the 2001 submission, but
have been typical of the Department’s reporting process since GPEA planning
began. OIG addresses each of these deficiencies in detail below.




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   9 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                     GPEA/E-Government Approach Not Linked to Key
                     Department-wide Planning Processes

                OIG found that the Department’s GPEA/e-government approach is not integrated
                effectively with key strategic and capital planning processes. As discussed above,
                the Department included in its 2001 GPEA update a strategy and vision for e-
                government. OMB commented in the budget passback for that year that the
                Department’s strategy was integrated with its capital planning process and that the
                list of high-priority e-government initiatives reflected clear linkages with its overall
                strategic plan. However, a working group that IRM established to compile the
                2001 update subsequently indicated that high-priority e-government initiatives
                identified in the submission were not linked with the Department’s IT strategic
                plan.

                    OIG examined the IT strategic plan to determine the extent to which the plan
                integrated the Department’s GPEA/e-government approach. OIG found that the
                IT Strategic Plan for FY 2001-2005 outlined a number of changes in the
                Department’s IT program that were needed to support its goal of e-diplomacy.
                However, the IT Strategic Plan had not been updated to address explicitly objec-
                tives of the President’s Management Agenda or link to the GPEA legislation. OIG
                found no overarching document that clearly and comprehensively outlined the
                Department’s e-government vision and strategy.

                     Similarly, OIG found that the Department had not integrated its GPEA/e-
                government approach with its IT capital planning process for selecting, controlling,
                and evaluating technology investments. The Department’s GPEA working group
                indicated that all the resources required to support the high-priority e-government
                initiatives had not been reviewed by the Department’s IT Program Board. Further,
                Bureau of Information Resource Management (IRM) officials told OIG that noth-
                ing had ever explicitly been done at the Department to align GPEA/e-government
                with the capital planning process. They said that there had never been any advo-
                cacy or promotion of GPEA/e-government as an initiative that could compete
                with other projects for IT funding.

                     Ad Hoc Approach to GPEA Reporting

                The Department used an ad hoc approach to comply with GPEA rather than a
                comprehensive strategy for coordinating e-government Department-wide. Accord-
                ing to the Clinger-Cohen Act,7 agency Chief Information Officers (CIO) are to

                7Formerly, Information Technology Reform Act: Pub. L. No. 104-106, Div. E, 110 Stat. 679 (1996), 40
                U.S.C. 1401.

10 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



involve senior executives and program officials in ensuring effective management
of IT resources and initiatives. Within the Department, however, the Bureaus of
Administration and IRM have had responsibility for complying with GPEA, and
comparable program units have had responsibility for their individual e-government
initiatives. Bureaus and offices manage information collection activities and e-
government initiatives in a decentralized manner; there is no central database or
mechanism for tracking all e-government initiatives across the Department. As a
result, the Bureau of Administration and the GPEA working group had to send
data calls to all relevant bureaus and offices to collect the information needed to
develop the Department’s GPEA submissions. IRM officials explained that it was
generally hard to get commitment from units to send in information requested
through data calls, and they had to rely heavily on documentation readily available
to compile the required GPEA report.

    With this decentralized approach, the Department did not adequately commit
resources to address GPEA and e-government oversight and there was no assur-
ance that all of the Department’s e-government initiatives were included in the
GPEA plan updates. The Department’s approach to developing its GPEA plan and
updates to OMB was to assign individuals on a collateral or as-needed basis to
address the annual reporting requirements. No dedicated program management
office, full-time staff, or corresponding resources were provided. In addition, OIG
believes that this ad hoc reporting approach resulted in initiatives not being in-
cluded in the GPEA plan. For example, in November 2001, the Internet Steering
Committee issued a memorandum to several Assistant Secretaries concerning
access from external organizations to the Department’s databases and websites.
The memorandum identified several e-government initiatives that could greatly
enhance the Department’s Internet capabilities and services. However, the steering
group released the memorandum after the Department had already submitted its
2001 GPEA update to OMB, and thus, some of the initiatives listed in the memo-
randum were not included in the update. Officials that OIG interviewed also
noted that when they received a copy of the draft submission, it included numerous
inaccuracies because the working group had used inconsistent information drawn
from a variety of sources.

     Ineffective Approach to Identifying High-Priority
     Initiatives

OIG’s analysis of the GPEA submissions showed that the Department had no
sound methodology for identifying high-priority GPEA initiatives. In the 2001 plan
update, the Department listed 17 high-priority e-government initiatives. The



OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   11 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                working group identified the initiatives without having them validated by senior
                management or bureau officials. They also had established no clear criteria for
                deciding what should be considered high-priority. Because of time constraints, the
                working group used existing documentation, such as the Department’s Strategic
                Plan, September 2000, and the Department’s Performance Plan, Fiscal Years 2001-
                2002, to identify the high-priority initiatives. In response to the plan update, OMB
                had to ask for more details on the initiatives, including the e-government transfor-
                mation stage that each project would support and estimated completion dates for
                meeting the 2003 GPEA deadline.

                     Lack of Linkage to an Enterprise Architecture

                The Department did not link its GPEA plan and e-government initiatives to an
                enterprise architecture. The Clinger-Cohen Act defines an IT architecture as an
                integrated framework for evolving or maintaining existing IT and acquiring new
                technologies to achieve the agency’s strategic goals and information resources
                management objectives. An enterprise architecture can clarify and help optimize
                the interdependencies and interrelationships among an organization’s business
                operations and the underlying IT infrastructure and applications that support them.
                Managed properly, an enterprise architecture can help in reengineering business
                processes and serve as a blueprint of the baseline, transition, and target architec-
                tures necessary to support an agency’s e-government initiatives.

                    At the time of the 2001 GPEA update, the Department did not have a final
                enterprise architecture on which to base its submission. OMB reviewed a draft of
                the architecture and reported in its Executive Branch Management Scorecard for
                FY 2001 that the architecture was incomplete. The Department revised the
                enterprise architecture and distributed an updated draft in June 2002 for final
                review and comment. IRM released the final version of the enterprise architecture
                in mid-July 2002.

                E-Government and GPEA Implementation
                Practices of Other Federal Agencies

                The Department could benefit by considering and applying some innovative
                GPEA/e-government practices of other federal agencies. In an April 2002 draft
                report to management, Establishing an Organizational Framework in the Department of
                State for Electronic Government, the GPEA working group noted that several agencies
                within the federal government have applied innovative and effective approaches to
                comply with GPEA and implement their e-government programs. The agencies


12 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



included the Departments of Housing and Urban Development, Commerce,
Energy, Labor, and Transportation.

    OIG interviewed officials at several of these agencies to identify their e-
government practices and management structures. The foremost practice among
these agencies was to articulate clearly their e-government vision and strategy.
One agency, for example, had created an e-government strategic plan that clearly
outlined the agency’s vision for the use of electronic commerce for the next five
years. The strategic plan defined the agency’s e-government mission, outlined goals
and objectives, presented high-level implementation strategies, and identified the
required capabilities for successful implementation. In essence, it provided a
roadmap for enhancing the agency’s leadership in e-government to serve citizens
and business partners better and to restore public trust by streamlining core busi-
ness processes and giving employees the tools and information they needed.

    Another effective approach was to use automated means to manage e-govern-
ment initiatives across agency units. Two of the agencies that OIG visited had
developed highly effective agency-wide databases of e-government initiatives. The
databases assisted the agencies in managing and tracking the progress of initiatives
in their inventories. In addition, the databases helped the agencies prepare accurate
GPEA plans and updates for OMB. As part of the database approach, and using
the OMB scorecard’s green-yellow-red color-coding scheme, one agency developed
a scorecard that helped in monitoring and briefing senior management on agency
progress in achieving GPEA/e-government objectives.

    Officials at the agencies OIG visited cited senior management commitment as
the key factor in the success of their e-government initiatives and their progress in
complying with GPEA requirements. The CIOs of each agency discussed with
their Deputy Secretaries the importance of GPEA/e-government and, in turn,
obtained commitment and support for accomplishing these objectives across their
organizations. One agency CIO highlighted e-government activities in weekly
meetings with the Deputy Secretary. Another CIO empowered officials responsible
for managing GPEA to implement meaningful projects to further the goals of e-
government.

    One agency believed it was important to gain support from management as well
as commitment from the program level to ensure success in meeting e-government
objectives. In this regard, the Deputy Secretary sent a memorandum to all operat-
ing units emphasizing how the agency, through its commitment to a strong e-
government program, could dramatically improve service to the American public




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   13 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                while streamlining internal operations. Within the same memorandum, the Deputy
                Secretary requested that each operating unit designate an e-government liaison to
                work with the CIO on e-government issues, including GPEA implementation.


                    Recommendation 1: OIG recommends that the Chief Information Officer,
                    Bureau of Information Resource Management, improve oversight and coordi-
                    nation of the Department’s e-government initiatives and formulation of plans
                    for fulfilling requirements of the Government Paperwork Elimination Act by:

                    • Documenting the Department’s GPEA/e-government vision and strategy,
                    linking it to the Department’s IT strategic, tactical, and capital investment
                    plans and processes;

                    • Requiring that bureaus and offices adhere to the stated department-wide
                    GPEA/e-government approach;

                    • Establishing a structured approach for identifying high-priority e-govern-
                    ment initiatives; and

                    • Ensuring that the GPEA/e-government vision and strategy are integrated
                    with the Department’s completed enterprise architecture.



                INADEQUATE MANAGEMENT STRUCTURE FOR EFFECTIVE
                GPEA IMPLEMENTATION
                The Department does not have an adequate project management structure in place
                to ensure effective implementation of GPEA. As a result, there was initial confu-
                sion as to which office should take responsibility for responding when OMB
                requested that the Department submit its plan for GPEA implementation. The
                Bureau of Administration developed the 2000 plan, but an IRM-led working group
                assumed responsibility for updating the plan the following year in response to more
                comprehensive GPEA/e-government requirements. Other federal agencies and
                prior Department programs have demonstrated the benefits of such central man-
                agement offices and the potential they have for guiding GPEA/e-government
                efforts.




14 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



Initial Confusion Regarding GPEA Reporting
Responsibility in 2000

Initially, there was confusion as to which office should take responsibility for
responding when OMB requested that the Department submit its plan for GPEA
implementation. In May 2000, the Executive Secretariat, which had received the
initial GPEA tasking, forwarded it to the Bureau of Economic and Business Affairs
for action because it was believed to be an electronic commerce issue. The Execu-
tive Secretariat subsequently redirected the tasking to IRM in June 2000 after
determining that there were IRM and Bureau of Administration issues in the plan.
Three months later, IRM recommended, and the Executive Secretariat agreed, that
the tasking be reassigned to the Bureau of Administration, which was responsible
for information collection activities from the public, a key focus of the GPEA
plan. Although the CIO initially had responsibility for information collections
pursuant to the Paperwork Reduction Act,8 in October 1998, the CIO delegated
this responsibility to the Assistant Secretary for Administration. Using the data it
received from the various bureaus and offices about their information collection
activities, the Bureau of Administration compiled the Department’s GPEA plan
and submitted it to OMB by October 31, 2000.

IRM Working Group Approach to GPEA
Reporting in 2001

As a result of the changes that OMB required in the 2001 GPEA plan update, the
CIO assumed responsibility for the reporting requirement. The CIO formed a
working group of representatives from bureaus and offices with major GPEA
responsibilities from across the Department. Using the results of a second call for
data, along with information from the Department’s strategic and performance
plans, the working group compiled the information needed to develop the 2001
GPEA plan update.

     Upon completing its work, however, the GPEA working group recognized that
although the 2001 GPEA plan update better articulated the Department’s e-
diplomacy mission and vision, there was no underlying structure to carry it out. In
its April 2002 draft report to management, Establishing an Organizational Framework
in the Department of State for Electronic Government, the working group summarized the



8   Public Law 104-13, 44 U.S.C. 3501 et seq.



OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   15 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                Department’s efforts to implement e-government and meet the goals of GPEA. In
                the draft, the working group stated that its ad hoc, multibureau approach was not
                adequate to provide the focus, accountability, and day-to-day coordination that e-
                government implementation needed. On the basis of its past experience and OMB
                expectations, the working group concluded that the Department needs a permanent
                staff to help carry out the ongoing requirement for GPEA/e-government reporting
                and coordination.

                    IRM has since drafted a memorandum for the Under Secretary for Management
                to decide whether IRM should establish a comprehensive organizational framework
                for e-government to carry out the President’s Management Agenda, monitor compliance
                with GPEA, and implement the Department’s e-government mission and vision.
                The draft memorandum notes that the Under Secretary for Management’s Office of
                Management, Policy and Planning has been designated to prepare a Department e-
                government strategic plan. The draft memorandum also states the need to develop
                a plan and provide additional resources to IRM to fund and staff the new program
                management office. As of July 2002, the deputy CIO for architecture, planning
                and regulations was reviewing the draft memorandum; it had not yet been for-
                warded to the Under Secretary for Management for a final decision.

                Demonstrated Benefits of Institutionalized GPEA
                Program Management

                There are demonstrated benefits to establishing program management offices to
                address Department IT objectives. The Department has had measurable success in
                several areas in the past few years with program management offices created to
                address high-impact projects, including Year 2000 management and ongoing
                OpenNet Plus efforts to provide employees with desktop access to the Internet. In
                each instance, the offices brought focus, resources, and accountability to the
                programs by providing guidance and assistance to bureaus and offices throughout
                the Department in accomplishing agency-wide goals.

                    For example, the Year 2000 program management office provided a centralized
                body to give technical support and guidance, manage the schedule, and track and
                report progress on Year 2000 management efforts. The office oversaw the testing
                of every corporate application and witnessed firsthand the problems encountered.
                The office also took measures to assess and ensure the operational preparedness of
                overseas posts for the millennium transition. A critical step was development of a
                contingency planning tool kit, which provided a structure for assessing the status
                of systems and infrastructures as well as highlighting opportunities for long-term
                management improvements to Department operations.

16 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



    Further, e-government officials from several federal agencies that OIG visited
based on the GPEA working group recommendations said that they benefited from
establishing centralized organizations to address e-government initiatives. Specifi-
cally:

     •    One federal agency formed an agency-wide e-government working group
          led by CIO staff and comprised of representatives from all major program
          offices. The working group conducted visioning sessions with employees
          and managers at all levels, studied best practices in the public and private
          sector, and gained support from executive management to develop an e-
          government strategic plan.

     •    A second federal agency created an e-government organization, headed by
          an associate CIO for e-government, which provided leadership and guid-
          ance throughout the agency to facilitate the transition to digital govern-
          ment. This office had its Deputy Secretary send a memorandum to all of
          the agency’s operating units directing that they each designate a liaison to
          support the GPEA/e-government efforts of the central organization.

     •    A third federal agency created an e-government division within the CIO’s
          office to address not only GPEA, but also the Paperwork Reduction Act
          and OMB’s 24 government wide “Quicksilver”9 e-government initiatives.
          Although, agency operating units were delegated to implement e-govern-
          ment according to their individual needs, the CIO division coordinated and
          oversaw their activities and took responsibility for GPEA reporting.

    A program management office created within the Department to address e-
government issues could similarly provide the day-to-day focus and resources to
advance the Department’s e-government initiatives. The program management
office would ensure that bureau and office e-government initiatives are in line with
the Department’s e-diplomacy mission and vision. A program management office
would also be able to meet in a cohesive manner the reporting requirements to
OMB and the Congress on the status of the Department’s e-government initiatives
and GPEA.




9In 2001, OMB instituted a Quicksilver task force to coordinate 24 e-government initiatives that integrate
processes and systems across department and agency lines. These initiatives include such shared or federal
government-wide activities as payroll processing and export licensing.




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   17 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED




                    Recommendation 2: OIG recommends that the Chief Information Officer,
                    Bureau of Information Resource Management, establish a centralized program
                    management office to provide full-time, day-to-day support for overseeing and
                    coordinating the Department’s e-government initiatives and formulating cor-
                    responding plans and approaches for meeting legislated GPEA requirements.




                ENSURING THE SECURITY OF E-GOVERNMENT TRANSACTIONS
                Providing more accessible and efficient government services through web-based
                communications requires public confidence in the security of the electronic sys-
                tems and networks used to accomplish these e-government goals. At the same time
                that electronic systems help improve the way government shares and uses informa-
                tion, conducts business, and delivers services, they must also be able to protect the
                confidentiality of citizens’ information, authenticate the identity of the transacting
                parties to the degree required by the transaction, and guarantee that the informa-
                tion exchanged is not altered in an unauthorized way. Along with requirements in
                GPEA and other federal directives, the E-Sign Act promotes the use of digital
                signatures to ensure security in e-government transactions. One means of doing so
                is the use of Public Key Infrastructure (PKI), an integrated system of hardware,
                software, policies, and users that, when fully and properly implemented, can pro-
                vide a suite of information security assurances that are important in protecting
                sensitive communications and transactions. PKI has been generally accepted as a
                key information assurance technology in private industry and has been promoted
                for use in government by the Federal PKI Steering Committee.

                     The Department has adopted PKI as its agency-wide means of ensuring secu-
                rity in e-government transactions and in November 1999 established a program
                office to oversee its implementation. However, the Department has not supported
                the program with the priority funding, staff resources, and central direction it needs
                to help accomplish agency-wide GPEA/e-government goals. Through PKI, all
                authentication is to be done on the Department’s websites with no paper documen-
                tation and with digital signatures bearing the same legal authority as physical
                signatures. According to the PKI program manager, the Department already has a
                hierarchical PKI approach in place and has developed a certificate policy for how
                PKI will be managed. Additionally, every application within PKI is to have a
                certificate practice statement, outlining relevant operating and security practices.




18 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



To date, PKI has been implemented on a limited basis in the Department to sup-
port such pilots as the Foreign Affairs Directory Service, Foreign Affairs Systems
Integration, and the Immigration and Naturalization Service Allocation Manage-
ment System.

    Despite this progress, the Department faces a number of challenges to the
effective agency-wide PKI implementation necessary to support GPEA and e-
government goals. The foremost impediment to successful PKI implementation is
inadequate funding. The PKI program office requested $7.5 million for FY 2002
and approximately the same for FY 2003, with a total of $27.5 million for the five-
year life cycle of the program, to include both domestic and overseas implementa-
tion. In comparison, actual funding for FY 2002 consisted of only a $155,000
base, $454,000 from the Central Investment Fund, and $800,000 for a joint con-
tract with the Bureau of Diplomatic Security for a smart card project.

    The program office is operating with an insufficient staff of five officials, who
have other collateral duties. The office is concentrating on initial PKI deployment
and gaining operational experience. However, full implementation of PKI in the
Department will require a substantial increase in resources, both for daily opera-
tions and for obtaining licenses. Once a PKI infrastructure is in place, the cost
structure to operate and maintain it is expected to flatten out.

    The PKI program office is also operating without adequate central policy
direction. Though it is supposed to be the Department standard, there is no De-
partment policy designating PKI technology as mandatory for information assur-
ance of electronic transmissions. Currently, PKI certification is done on an as-
needed basis. The PKI office simply responds to requests for electronic certifi-
cates, but has not coordinated with all of the stakeholders across the Department
to determine which ones might eventually require support from the PKI program.
Further, there is no policy to determine which groups get priority in certification.
To date, the certificate policy and certificate practice statements are the only
existing Department policies on PKI.

    The lack of central policy on department-wide use of PKI is exacerbated by
conflicts with existing legal requirements that may in some cases preclude elec-
tronic transactions. Perhaps the most glaring example is that of visa applications,
which may require a personal appearance before a consular officer. The Bureau of
Consular Affairs has halted initiatives to put some parts of this application process
on-line because the degree to which such processes should be automated remains
undetermined. In other instances, technology used in the Department has not
been adequate to meet legal requirements, and the necessary IT fixes have not been


OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   19 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                easily accomplished. For example, the Bureau for Educational and Cultural Affairs
                has difficulty complying with a congressionally mandated, 15-day grant review
                process. Because of a systems incompatibility problem, the bureau currently
                provides voluminous hard-copy grant applications and forms for mandatory Con-
                gressional review. The bureau faces problems introducing paperless technologies
                into the process. Bureau officials also are not sure whether the Department has
                adequately addressed PKI issues necessary to allow for electronic submissions
                within this process.


                    Recommendation 3: OIG recommends that the Chief Information Officer,
                    Bureau of Information Resource Management, develop and implement poli-
                    cies that address how the Public Key Infrastructure program will be managed,
                    when such security and authentication technology should be used, and what
                    organizations should receive priority certification.




20 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED




     DEPARTMENT COMMENTS AND OUR EVALUATION

We obtained written comments on a draft of this report from the Office of the
Under Secretary for Management, Office of Management, Policy and Planning (M/
P). We have incorporated the comments where appropriate and included a copy of
the comments in their entirety at Appendix B.

    In its response, M/P generally concurred with each of the recommendations in
the report, but provided clarification or updated information on actions the Depart-
ment has taken since development of the draft to address OIG concerns. Specifi-
cally, M/P agreed with OIG recommendation 1 regarding the need for improved
oversight and coordination of the Department’s e-government initiatives and
specific activities to address in fulfilling GPEA requirements. However, M/P
disagreed that these functions are solely the responsibility of the CIO or the Bureau
of Information Resource Management. M/P suggested that, because the CIO does
not have the ability to impose sanctions for noncompliance across the Department,
the functions would be carried out best by a coordinated group of business and
technology professionals. M/P said that the Under Secretary for Management and
the CIO were reviewing the entire structure of the Department’s e-government
programs to determine how best to enforce these requirements. OIG agrees with
the rationale behind this approach and will continue to monitor centralization and
coordination of e-government implementation to keep abreast of progress made.

    M/P also agreed with the concept of centralizing program management of e-
government and GPEA in OIG recommendation 2. M/P said that, to that end, the
Under Secretary for Management has directed review and reform of IT Program
Board functions and processes, instituted an e-Diplomacy Office, and created an e-
Government Strategic Planning Working Group. M/P believed that creation of the
e-Diplomacy Office demonstrates profound commitment to electronic government
and is a step toward centralization of program management. M/P also is working
with the e-Diplomacy Office and IRM to develop a mission statement for an e-
government strategic plan to ensure that the Department’s electronic initiatives are
both coordinated and suited to the business needs of the organization.

     OIG views these changes as important and positive steps toward clearly articu-
lating a Department-wide e-government vision and strategy, integrating e-govern-
ment with IT investment planning, and involving senior management in these e-


OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   21 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                government processes. OIG anticipates that these changes will go a long way in
                helping to improve the efficiency of Department operations and, ultimately, the
                effectiveness of service to the public. OIG remains concerned, however, that the
                changes do not address specifically how the Department will fulfill the annual
                GPEA reporting requirement and meet the requirements of the law. This concern
                is underscored by the fact that the September 23, 2002 deadline for the GPEA
                update has already passed and, as of November 2002, the Department has not yet
                finalized its submission to OMB.

                    In its comments, M/P agreed with OIG recommendation 3 regarding develop-
                ment and implementation of policies that address how the PKI program will be
                managed, when such security and authentication technology should be used, and
                what organizations should receive priority certification. M/P said that the
                Department’s existing PKI Office, in cooperation with the Bureaus of IRM and
                Diplomatic Security and the e-Diplomacy Office, is working to develop and further
                implement a Department-wide program. M/P said that the e-Diplomacy Office is
                assisting the PKI Office in prioritizing certifications, which will flow from defined
                business needs and potential user benefits. Again, OIG agrees with this approach
                and looks forward to seeing more progress in this area.

                    In addition to these specific responses to OIG report recommendations, the
                GPEA working group and the Deputy CIO pointed out that OIG’s use in the report
                of excerpts from draft IRM documents might mislead those who read the report.
                IRM explained that the documents were not cleared outside of IRM and therefore
                should not be quoted as official documents or considered as representative of
                Department policy. Specifically, IRM was concerned about OIG references in the
                report to two documents drafted for the attention of the Office of the Under
                Secretary of Management: (1) a draft working group report, Establishing an Organi-
                zational Framework in the Department of State for Electronic Government; and (2) a draft
                memorandum on whether IRM should establish a comprehensive organizational
                framework for e-government to carry out the President’s Management Agenda, monitor
                compliance with GPEA, and implement the Department’s e-government mission
                and vision.

                    OIG does not agree with IRM’s concern that references to the draft documents
                might mislead those who read the report. OIG clearly identifies the documents as
                draft each time it cites them in the report. OIG does not reference the documents
                as official or representative of Department policy. Rather, OIG points to the
                concerns and recommendations that the GPEA working group sought to raise to
                senior management attention in these documents as positive, though unsuccessful,
                attempts to improve the Department’s e-government implementation and GPEA


22 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



compliance. Clearly, as products of the working group charged with coordinating
e-government initiatives and developing the Department’s 2001 GPEA submission,
the draft report and memorandum cited were essential to OIG’s review. OIG
believes that it would have been remiss on its part not to acknowledge develop-
ment of such documents and assess the merits of the information contained
therein.

    Finally, M/P reiterated that e-government management is not limited to the
efforts of the Bureau of Information Resource Management, stating that the CIO,
the Under Secretary for Management, and the latter’s entire senior management
team, consider e-government an integral element of the Department’s business
practices. M/P further emphasized that the planning and organizational efforts
underway reflect this belief and demonstrate the Under Secretary’s commitment to
advancing the President’s Management Agenda through its e-government, IT capital
planning, and GPEA activities. OIG recognizes the senior management attention
and reforms undertaken with regard to e-government management in recent months
and, as appropriate, has revised its report to reflect the progress made.




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   23 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                                                                                                          APPENDIX A




                PURPOSE, SCOPE AND METHODOLOGY
                To fulfill its review objectives, OIG obtained background information on the
                legislative requirements of GPEA, including OMB guidance to fulfill those require-
                ments. OIG reviewed background information on e-government implementation.
                Additionally, OIG obtained and reviewed guidance and background information
                related to digital signature technology. OIG also studied the Department’s 2000
                GPEA plan and 2001 updates to OMB and the management structure in place to
                develop and report on the initiatives detailed in those submissions.

                    OIG met with officials from the Bureaus of IRM and Administration to discuss
                the Department’s approach to GPEA compliance. OIG examined the
                Department’s 2000 plan and 2001 update and identified the bureaus with the most
                projects related to GPEA. Based on this analysis, OIG interviewed officials from
                the Bureaus of Consular Affairs, Educational and Cultural Affairs, Political-Military
                Affairs, and the Office of International Information Programs to discuss their
                current GPEA projects. Additionally, OIG met with the program manager of the
                Department’s PKI program office to discuss the Department’s posture with respect
                to the GPEA mandate of implementing a reliable digital signature technology.

                    OIG met with OMB officials to discuss their expectations and goals for suc-
                cessful GPEA implementation and the linkage between GPEA and the overarching
                objective of realizing e-government. OIG also discussed with OMB officials their
                ideas for improving the management structures for implementing GPEA. OIG
                then met with representatives from the Departments of Housing and Urban Devel-
                opment, Commerce, and Transportation to discuss their GPEA management
                structures and compare them with the Department’s approach.

                    OIG conducted its review from March to July 2002 at the Department in
                Washington, DC. OIG performed its work in accordance with generally accepted
                government auditing standards. OIG obtained comments on a draft of this report
                from M/P. Major contributors to this report were Frank Deffer, Sondra McCauley,
                John Shiffer, and Matthew Ragnetti. Comments or questions about the report can
                be directed to Mr. Deffer, Assistant Inspector General, IT Evaluations and Opera-
                tions, at defferf@state.gov or (703) 284-2715.



24 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
                                           UNCLASSIFIED



                                                                                              APPENDIX B

                                  DEPARTMENT COMMENTS




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   25 .


                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                                                                                                             APPENDIX B

                                        DEPARTMENT COMMENTS (Continued)




26 . OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002

                                                  UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
                                           UNCLASSIFIED



                                                                                              APPENDIX B

                        DEPARTMENT COMMENTS (Continued)




OIG Report No. IT-A-03-01, Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives - December 2002   27 .


                                           UNCLASSIFIED
